TN
COCKLE

Est. 1923,

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No. 20-444

UNITED STATES OF AMERICA,
Petitioner,
Vv.
MICHAEL ANDREW GARY,
Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE NATIONAL ASSOCIATION. OF FEDERAL DEFENDERS IN SUPPORT OF
RESPONDENT in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point

for the footnotes, and this brief contains 7289 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 25th day of March, 2021.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL ROTARY State of Nebraska
i RENEE J. GOSS O.
My Comm. Exp. September 5, 2023

Notary Public

Ousow-h. Bhlhe

Affiant 40741
